APPENDIX A
MEMORANDUM DECISION
Filed Decemer 17, 2019

Case: 18-10451, 12/17/2019, ID: 11534754, DktEntry: 41-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
DEC 17 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S. COURT OF APPEALS

No. 18-10451
D.C. No. 1:14-cr-00707-SOM-1

v.
DOUGLAS FARRAR, Sr.,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Hawaii
Susan O. Mollway, District Judge, Presiding
Submitted December 11, 2019**
Before:

WALLACE, CANBY, and TASHIMA, Circuit Judges.

Douglas Farrar, Sr., appeals from the district court’s judgment and
challenges the 324-month sentence imposed following his jury-trial conviction for
conspiracy to distribute and possess with the intent to distribute methamphetamine
and cocaine, distribution of methamphetamine, and attempting to possess with

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 18-10451, 12/17/2019, ID: 11534754, DktEntry: 41-1, Page 2 of 3

intent to distribute methamphetamine and cocaine, in violation of 18 U.S.C. § 2,
and 21 U.S.C. §§ 841, 846. We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
Farrar contends that the district court procedurally erred by failing to make
express findings regarding the willfulness and materiality of his suppression
hearing testimony when it imposed a 2-level enhancement for obstruction of justice
under U.S.S.G. § 3C1.1. When a district court relies on perjured testimony to
enhance a defendant’s guideline range under U.S.S.G. §3C1.1, it must make
express findings that the defendant willfully gave false testimony on a material
matter. See United States v. Castro-Ponce, 770 F.3d 819, 822 (9th Cir. 2014).
Here, the district court made express findings concerning falsity and willfulness
during the sentencing hearing and expressly adopted as its factual findings the
presentence report, which addressed all of the required elements. Moreover, the
district court’s order denying Farrar’s suppression motion made clear how Farrar’s
testimony was material to the determination whether to suppress the evidence.
Under these circumstances, the district court did not plainly err. See United States
v. Dallman, 533 F.3d 755, 762 (9th Cir. 2008).
Farrar also contends that the sentence is substantively unreasonable. The
district court did not abuse its discretion. See Gall v. United States, 552 U.S. 38,
51 (2007). The below-Guidelines sentence is substantively reasonable in light of

2

18-10451

Case: 18-10451, 12/17/2019, ID: 11534754, DktEntry: 41-1, Page 3 of 3

the 18 U.S.C. § 3553(a) factors and the totality of the circumstances, including
Farrar’s criminal history and the nature of the offense. See Gall, 552 U.S. at 51;
see also United States v. Gutierrez-Sanchez, 587 F.3d 904, 908 (9th Cir. 2009)
(“The weight to be given the various factors in a particular case is for the discretion
of the district court.”).
AFFIRMED.

3

18-10451

APPENDIX B
ORDER DENYING REHEARING
Filed March 20, 2020

Case: 18-10451, 03/20/2020, ID: 11637085, DktEntry: 43, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No. 18-10451
D.C. No. 1:14-cr-00707-SOM-1
District of Hawaii,
Honolulu

DOUGLAS FARRAR, Sr.,
ORDER
Defendant-Appellant.
Before:

WALLACE, CANBY, and TASHIMA, Circuit Judges.

Farrar’s petition for panel rehearing (Docket Entry No. 42) is denied.

